         Audit Report




   OIG-06-033

   FOREIGN ASSETS CONTROL: Assessing OCC’s Examination of
   OFAC Compliance Was Hampered by Limited Documentation

   July 31, 2006




Office of
Inspector General
Department of the Treasury
Contents


Audit Report...............................................................................................       1

    Results in Brief.................................................................. ……………………                   2

    Background ...................................................................... ……………………                    3

    Audit Results .......................……………………………………………………………                                                  6

    Recommendations .....................................................................................       10

Appendices

    Appendix 1:          Objective, Scope, and Methodology ......................................               12
    Appendix 2           Major Contributors to This Report .........................................            14
    Appendix 3:          Bank Secrecy Act/Anti-Money Laundering Examination Manual
                         Excerpt/Core Examination Procedures ...................................                15
    Appendix 4:          Management Response .......................................................            18
    Appendix 5:          Report Distribution..............................................................      20

Abbreviations

    AML                  Anti-Money Laundering
    BSA                  Bank Secrecy Act
    FFIEC                Federal Financial Institutions Examination Council
    OCC                  Office of the Comptroller of the Currency
    OFAC                 Office of Foreign Assets Control
    OIG                  Office of Inspector General




                         FOREIGN ASSETS CONTROL: Assessing OCC’s Examination of OFAC Compliance
                         Was Hampered by Limited Documentation (OIG-06-033)                                   Page i
        This page intentionally left blank.




FOREIGN ASSETS CONTROL: Assessing OCC’s Examination of OFAC Compliance
Was Hampered by Limited Documentation (OIG-06-033)                     Page ii
                                                                                     Audit
OIG
The Department of the Treasury
                                                                                     Report
Office of Inspector General




               July 31, 2006

               John C. Dugan
               Comptroller
               Office of the Comptroller of the Currency

               As a follow-up to a previous OIG report,1 we conducted an audit of the
               Office of Foreign Assets Control’s (OFAC) administration and
               enforcement of economic sanctions against targeted foreign countries,
               individuals, and groups. OFAC acts under presidential wartime and
               national emergency powers, as well as authority granted by specific
               legislation, to impose controls on transactions and freeze foreign assets
               under U.S. jurisdiction. OFAC sanctions are enforced largely by financial
               institutions. Because OFAC is legally limited in its ability to monitor
               financial institutions’ compliance with foreign sanction requirements,2 it
               depends on financial institution regulators, such as the Office of the
               Comptroller of the Currency (OCC), to ensure that financial institutions
               comply with OFAC requirements. Accordingly, as part of our audit, we
               tested regulatory oversight of OFAC compliance for a sample of financial
               institutions to determine whether OFAC’s foreign sanctions programs
               were being effectively administered. This report presents the results of
               our review of OCC compliance examinations.

               We conducted our audit from March 2005 to April 2006 in accordance
               with generally accepted government auditing standards. A more detailed
               description of our objective, scope and methodology is included in
               appendix 1.

1
  FOREIGN ASSETS CONTROL: OFAC’s Ability to Monitor Financial Institution Compliance Is Limited
Due to Legislative Impairments (OIG-02-082, April 26, 2002).
2
   Section 3412 (d) of the Right to Financial Privacy Act (12 U.S.C. 3401) allows supervisory agencies
to exchange examination information with other supervisory agencies. OFAC is not included in this
Act’s list of supervisory agencies [§ 3401(7)].




                      FOREIGN ASSETS CONTROL: Assessing OCC’s Examination of OFAC Compliance
                      Was Hampered by Limited Documentation (OIG-06-033)                     Page 1
Results In Brief
               OCC’s examination work papers did not provide assurance that banks
               were adequately reviewing or effectively administering OFAC’s sanctions
               programs. From a sample of 18 OCC examinations conducted in fiscal
               years 2002 through 2005, we found, for every examination, one or more
               instances in which documentation was insufficient to verify that
               examiners adequately assessed OFAC program compliance. Specifically,
               the OCC examination work papers did not always contain sufficient
               documentation to demonstrate that examiners fully assessed
                           •   bank policies and procedures for its OFAC compliance
                               program,
                           •   bank comparisons of its accounts with OFAC listings,
                           •   correspondence between the bank and OFAC, and
                           •   results of internal bank audits for possible OFAC program
                               concerns.
               OCC’s policy on supervisory work papers states that examiners should
               generate and retain only those documents necessary to support the scope
               of supervisory activity, significant conclusions, rating changes, or
               changes in risk profile. We believe, however, that this policy makes it
               difficult to assess the adequacy of the review and creates inconsistency
               in how program results are documented. Guidelines recently issued by the
               Federal Financial Institutions Examination Council (FFIEC)3 should help
               ensure the consistency of examination coverage.

               We are making recommendations to OCC to ensure that (1) the current
               OCC guidelines for OFAC compliance examinations incorporate the
               policies and procedures contained in the FFIEC BSA/AML Examination
               Manual and (2) examiners sufficiently and consistently document the
               work performed so that an independent reviewer can clearly see which
3
  FFIEC, established under title X of the Financial Institutions Regulatory and Interest Rate Control Act
of 1978, is a formal interagency body empowered to prescribe uniform principles, standards, and report
forms for the examination of financial institutions by federal regulators. The members of FFIEC, in
addition to OCC, are the Office of Thrift Supervision, the Federal Deposit Insurance Corporation, the
Board of Governors of the Federal Reserve System, and the National Credit Union Administration.




                       FOREIGN ASSETS CONTROL: Assessing OCC’s Examination of OFAC Compliance
                       Was Hampered by Limited Documentation (OIG-06-033)                     Page 2
        procedures were performed and ascertain the basis for all significant
        conclusions, including changes to regulatory ratings and risk profiles.

        OCC concurred with our recommendations. OCC has replaced its OFAC
        compliance examination procedures with the FFIEC Bank Secrecy
        Act/Anti-Money Laundering Examination Manual. OCC also intends to
        reinforce its documentation expectations with examining staff.

        In OCC’s response to our draft report, the Comptroller stated that OCC
        has taken major steps, individually, and as part of interagency initiatives
        to enhance BSA/AML processes, including OFAC compliance, in the past
        several years. He also said he is committed to these goals and personally
        directed further enhancements to these processes in the fall of 2005.


Background
        OFAC’s Mission and Sanctions Programs

        The mission of OFAC, an office within the Department of the Treasury, is
        to administer and enforce economic and trade sanctions, based on U.S.
        foreign policy and national security goals, against targeted foreign
        countries, terrorists, international narcotics traffickers, and those engaged
        in activities related to the proliferation of weapons of mass destruction.
        All U.S. persons, including U.S. banks, bank holding companies, and
        nonbank subsidiaries must comply with OFAC regulations.

        OFAC regulations involve blocking accounts and other assets of the
        specified countries, entities, and individuals and rejecting financial
        transactions with specified countries, entities, and individuals. If financial
        institutions fail to block or reject prohibited transactions, OFAC has the
        authority to impose civil monetary penalties against them.

        OFAC sanctions can reach into virtually all areas of banking operations.
        Therefore, banks need to consider all types of transactions, products, and
        services when they conduct risk assessments and establish appropriate
        policies and procedures.




              FOREIGN ASSETS CONTROL: Assessing OCC’s Examination of OFAC Compliance
              Was Hampered by Limited Documentation (OIG-06-033)                     Page 3
               OCC Role in Ensuring Banks’ Compliance with OFAC Regulations

               The mission of OCC, which charters, regulates, and supervises all U.S.
               national banks, is to ensure a stable and competitive national banking
               system. OCC has the authority to examine banks and take supervisory
               actions against banks that do not comply with laws and regulations or
               that otherwise engage in unsound banking practices. As of
               September 30, 2005, OCC was responsible for regulating and supervising
               1,933 national banks and 51 federal branches of foreign banks in the
               United States. National banks, as of June 30, 2005, held 67 percent
               ($5.8 trillion) of the total assets of all U.S. commercial banks.

               It is OCC’s responsibility to ensure that national banks comply with OFAC
               regulations. However, none of the laws that authorize sanctions for OFAC
               violations contain specific language that delegates administrative
               enforcement responsibility to any of the financial institution regulatory
               agencies, including OCC. Consequently, OCC’s OFAC enforcement
               responsibilities fall under its general examination responsibility to ensure
               that banks are following applicable laws and regulations.

               OCC Examination Procedures for OFAC Compliance

               In September 2000, OCC issued the Bank Secrecy Act/Anti-Money
               Laundering Comptroller’s Handbook, which contains procedures for
               reviewing and assessing banks’ OFAC compliance. According to the
               handbook, examiners should do the following:

                       •   Review all OFAC-related correspondence
                       •   Evaluate banks’ OFAC policies and procedures
                       •   Examine internal audits reports and management reviews
                           involving OFAC compliance
                       •   Verify that banks maintained a current and valid OFAC list4



4
 OFAC periodically publishes a Specially Designated Nationals and Blocked Persons list of individuals
and companies owned or controlled by, or acting for or on behalf, of targeted countries. The list also
contains individuals, groups, and entities, such as terrorists and drug traffickers.




                       FOREIGN ASSETS CONTROL: Assessing OCC’s Examination of OFAC Compliance
                       Was Hampered by Limited Documentation (OIG-06-033)                     Page 4
                      •   Determine whether banks have procedures to ensure that new
                          and existing accounts and transactions are compared with the
                          OFAC list.

               OCC Policies and Procedures Manual

               The Bank Supervision section of the OCC Policies and Procedures Manual,
               dated October 23, 2002, addresses supervision work papers and states
               that the level of detail in work papers should be commensurate with the
               risks facing the institution. In most cases, the work papers need not
               include all of the data reviewed. Instead, the examiner should generate
               and retain only documents necessary to support the scope, significant
               conclusions, rating changes, or changes in a risk profile. Work papers do
               not typically need to address every objective and procedural step.

               FFIEC Core Examination Procedures for OFAC Compliance

               In June 2005, FFIEC released the Bank Secrecy Act/Anti-Money
               Laundering Examination Manual (BSA/AML Examination Manual). The
               manual includes core procedures for examiners to use to determine
               whether financial institutions are in compliance with OFAC sanctions
               programs. (See appendix 3.) According to the BSA/AML Examination
               Manual, financial institutions should use a risk-based approach when
               considering the likelihood of encountering possible OFAC violations.

               The BSA/AML Examination Manual also states that transaction testing5 is
               a requirement to be accomplished as part of each examination. However,
               examiners are to use transactional testing in high risk areas identified in
               the bank’s risk assessment. If OFAC is deemed a high risk area, the
5
  As provided in the BSA/AML Examination Manual, examiners perform transaction testing to evaluate
the adequacy of the bank’s compliance with regulatory requirements, determine the effectiveness of its
policies, procedures, and processes, and evaluate suspicious activity monitoring systems. Transaction
testing, the manual states, is an important factor in forming conclusions about the integrity of the
bank’s overall controls and risk management processes and must be performed at each examination.
The extent of transaction testing and activities where it is performed is based on various factors,
including the examiner’s judgment of risks, controls, and the adequacy of the independent testing by
the bank’s internal audit function. Once the examiner is on-site, the scope of the transaction testing
can be expanded to address any issues or concerns identified during the examination.




                      FOREIGN ASSETS CONTROL: Assessing OCC’s Examination of OFAC Compliance
                      Was Hampered by Limited Documentation (OIG-06-033)                     Page 5
         examiners may choose to use transaction testing to evaluate the bank’s
         handling of new and established accounts, the effectiveness of interdict
         software if used, the handling of blocked transactions, or the resolution
         of false hits.

Audit Results
         OCC’s examination work papers lacked sufficient documentation to
         assure that banks were adequately reviewing or administering OFAC
         sanctions programs. Our review of fiscal years 2002-5 examination
         results for the 18 banks revealed instances of inadequate documentation
         for significant examination steps. The following table summarizes the
         results of our review:

         Table 1: Examinations Conducted in Fiscal Years 2002-5 with Insufficient
                  Documentation

          Examination
            .         Step                                             Number of Examinations

          Assessment of policies and procedures                                           16
          Assessment of effectiveness of bank
                                                                                          13
          comparisons to OFAC list
          Review of OFAC correspondence                                                   11
          Review of internal bank audit results                                            9
            Source: OIG analysis


         For one examination, OCC did not provide any work papers to support the
         examination’s findings.

         Our efforts to evaluate and verify the examiners’ conclusions were
         hampered by the lack of documentation. If examiners conclude that an
         institution is OFAC-compliant, OCC does not require that documentation
         covering all objectives and procedures as well as copies of bank policy
         documents be maintained and available to support their conclusions. As a
         result, documentation is often not available to allow an external reviewer
         to verify and assess the examiner’s conclusions. OCC management
         prefers that OCC resources be used to document and address conditions
         that result in noncompliance.




                FOREIGN ASSETS CONTROL: Assessing OCC’s Examination of OFAC Compliance
                Was Hampered by Limited Documentation (OIG-06-033)                     Page 6
Description of Our Review

To assess OCC examinations of banks’ compliance with OFAC
regulations, we selected a sample of 18 bank examinations that OCC
conducted in fiscal years 2002 through 2005. For our sample, we
selected 3 banks that had prior OFAC violations – OFAC had imposed
civil monetary penalties against 2 of these banks and issued a warning
letter to the third.

The remaining 15 banks were selected from a stratified sample of banks
based on asset size and distributed among the 4 OCC districts (western,
central, southern, and northeastern). In total, we selected 3 large banks
(assets from $25 billion to $999 billion), 5 medium banks (assets from $1
billion to $25 billion), and 10 small banks (assets from $1 million to
$1 billion). We included 3 banks each from New York, California, and
Texas as well as 2 banks each in Illinois and Missouri. The remaining 6
banks were located in New Jersey, Florida, Colorado, Indiana, and West
Virginia.

For each of the 18 banks in our sample, we requested copies of the most
recent OFAC compliance examination work papers. In addition, we
requested copies of all documentation that may have affected the scope
of the OFAC reviews.

Banks’ Policies and Procedures for Determining OFAC Compliance Were
Not Always Documented

Banks should have policies and procedures to ensure OFAC program
compliance. For 16 of 18 examinations, OCC examiners reported that
OFAC compliance was satisfactory, but we were unable either to confirm
that the policies and procedures existed or to validate the examiners’
summaries and conclusions. For 2 examinations, copies of the policies
and procedures were in the examination work papers. OCC officials
indicated that examiners need not maintain copies of a bank’s policies
and procedures and that it is considered sufficient to review them on-site.




      FOREIGN ASSETS CONTROL: Assessing OCC’s Examination of OFAC Compliance
      Was Hampered by Limited Documentation (OIG-06-033)                     Page 7
OCC Examinations Lacked Evidence of Assessment of the Effectiveness
of Bank Comparisons to OFAC List

In assessing banks’ compliance with OFAC, OCC examiners generally
note in their work papers the method a banks uses to compare accounts
and transactions to OFAC lists of countries, entities, and individuals
whose accounts, assets, or transactions are to be blocked or frozen. OCC
examiners indicated that 13 of the 18 banks used OFAC interdict
software to conduct their comparisons, but we did not find any evidence
that examiners had assessed whether the software was effective or had
been updated to include the most recent changes to the OFAC list.

For 2 of the other 5 banks, the examination work papers indicated that
the banks compared accounts and transactions to the OFAC list
manually. However, the work papers did not document whether the
examiners determined if the banks’ manual procedures were effective. For
the remaining 3 banks, the examination work papers did not specify how
comparisons were done.

We also evaluated whether OCC examiners verified that the banks
compared accounts with the OFAC list. In 3 of the 18 examinations,
there was no evidence that the examiners completed this procedure.

Examiners Did Not Always Document Reviews of OFAC-Related
Correspondence

One of the initial procedures OCC examiners perform in examining banks’
compliance with OFAC is to review any OFAC-related correspondence
specific to the bank under examination. In 10 of the 18 examinations,
OCC examiners did not document whether they conducted such a review.
In 1 examination, the examiner indicated that the correspondence review
was not conducted.

For the remaining 7 banks, the examiners documented their examination
results. Five banks did not have any OFAC-related correspondence to
review, while 2 banks had copies of issued OFAC penalties and warning
letters.




      FOREIGN ASSETS CONTROL: Assessing OCC’s Examination of OFAC Compliance
      Was Hampered by Limited Documentation (OIG-06-033)                     Page 8
Examiners Did Not Always Document Reviews of Internal Audit Reports

OCC examiners review banks’ internal audit reports to determine whether
banks have addressed any weaknesses identified in their OFAC
compliance program reviews. Examiners’ work papers for 9 of the 18
examinations contained insufficient evidence for us to determine whether
the bank conducted internal audits that included a review of OFAC
compliance. In 7 of these examinations, the banks conducted internal
audits, but the OCC examiner did not document whether OFAC
compliance was included in the scope of the audits. In the remaining 2
examinations, the examiners made no reference as to whether the bank
had performed any type of internal audit or independent review.

Conclusions

The FFIEC BSA/AML Examination Manual provides guidance for ensuring
that OFAC compliance examinations are uniform, comprehensive, and
based on valid risk assessments. According to the manual, financial
institution regulators such as OCC are to examine financial institutions to
determine the adequacy of each institution’s OFAC program and the
effectiveness of its risk management. The examiners are to use the
manual’s appendix M, “Quantity of Risk Matrix—OFAC Procedures,” to
help determine the OFAC risk level of the institution under review. Based
on their determination of risk from this matrix, as well as a review of prior
examination reports and internal audit findings for the institution, the
examiners are to select which policies and procedures to verify. We
believe this process should be documented.

In a November 14, 2005, letter to the chairman of the Senate Committee
on Banking, Housing and Urban Affairs, the Comptroller of the Currency
indicated that OCC would change its supervisory process to address the
increasing risk associated with BSA/AML compliance. Specifically, OCC
would strengthen its BSA/AML examinations through (1) enhanced risk
management; (2) application of the uniform examination procedures set
forth in the BSA/AML Examination Manual, including mandatory
transaction testing; and (3) timely and effective follow-up.

The Manual identifies the OFAC-related information that should be
requested by the examiners in preparing for the examination. In addition,




      FOREIGN ASSETS CONTROL: Assessing OCC’s Examination of OFAC Compliance
      Was Hampered by Limited Documentation (OIG-06-033)                     Page 9
       the numerous examination procedures and the options available for
       transaction testing will necessitate that examiners exercise care in
       choosing appropriate procedures and transactions for testing. To ensure
       that the results of OFAC examinations are valid and reliable, examiners
       will need to identify the documentation reviewed and the work
       performed. The basis for significant conclusions reached should be
       sufficient to satisfy an independent reviewer.


Recommendations
       We recommend that the Comptroller of the Currency do the following:

       1. Ensure that the current OCC guidelines for OFAC compliance
          examinations incorporate the policies and procedures contained in the
          FFIEC BSA/AML Examination Manual.

       2. Ensure examiners sufficiently and consistently document work
          performed so that an independent reviewer can clearly see which
          procedures were performed and ascertain the basis for all significant
          conclusions, including changes to regulatory ratings and risk profiles.

       Management Response

       OCC concurred with the first recommendation and reported that, as of
       June 2005, the FFIEC “Bank Secrecy Act/Anti-Money Laundering
       Examination Manual” has replaced the OCC-specific examination
       procedures for OFAC compliance. OCC agreed with the second
       recommendation and believes it is consistent with its current policy
       regarding work papers. OCC concluded that the level of exceptions noted
       in our audit report points to a need for improvement in practice. OCC will
       reinforce its expectations in this regard with examination staff.

       OIG Comments

       We believe that the actions OCC states in its response, if implemented as
       described, address the intent of our recommendations.




             FOREIGN ASSETS CONTROL: Assessing OCC’s Examination of OFAC Compliance
             Was Hampered by Limited Documentation (OIG-06-033)                    Page 10
                                  ******

We would like to extend our appreciation to OCC personnel for the
cooperation and courtesies extended to our staff during the reviews. If
you have any questions, please contact me at (617) 223-8640.


/s/
Donald P. Benson
Director




      FOREIGN ASSETS CONTROL: Assessing OCC’s Examination of OFAC Compliance
      Was Hampered by Limited Documentation (OIG-06-033)                    Page 11
Appendix 1
Objective, Scope, and Methodology




Our objective was to determine the effectiveness of OCC
examination efforts to ensure financial institution compliance with
OFAC requirements. This audit was performed in conjunction with
an audit of OFAC’s administration and enforcement of economic
sanctions against targeted foreign countries, individuals, and
groups. Because OFAC is legally limited in its ability to monitor
financial institutions’ compliance with foreign sanction
requirements, OFAC depends on financial institution regulators,
such as the OCC, to ensure that the institutions comply with OFAC
requirements.

We reviewed OCC work papers to determine whether the
examiners followed the examination guidelines in the OCC Bank
Secrecy Act/Anti-Money Laundering Comptroller’s Handbook. The
review focused on how OCC examiners identified each institution’s
OFAC policies and procedures and addressed the risks associated
with ensuring OFAC compliance.

We judgmentally selected a sample of 18 banks, using asset size
and geographic location as our main criteria. The sample
examinations were conducted in fiscal years 2002 through 2005.
Our sample included 3 banks that OFAC had reviewed for sanction
violations. OFAC imposed civil monetary penalties against 2 of
these banks and issued a warning letter to the third bank.

We requested copies of the most recent examination work papers
and copies of all documentation that may have affected the scope
of the OFAC reviews. The examination records were compiled by
the OCC onto a computer CD ROM and were reviewed at our
office. Because the work paper documentation appeared limited for
some of the sampled examinations, we reconfirmed with the OCC
audit liaison that the documentation provided represented all of the
examination documentation that was available.

We also compared the OFAC compliance guidance in OCC’s
September 2000 Bank Secrecy Act/Anti-Money Laundering
Comptroller’s Handbook with FFIEC’s June 2005 Bank Secrecy
Act/Anti-Money Laundering Examination Manual.




FOREIGN ASSETS CONTROL: Assessing OCC’s Examination of OFAC Compliance
Was Hampered by Limited Documentation (OIG-06-033)                    Page 12
Appendix 1
Objective, Scope, and Methodology


We conducted our audit from March 2005 to April 2006 in
accordance with generally accepted government auditing
standards.




FOREIGN ASSETS CONTROL: Assessing OCC’s Examination of OFAC Compliance
Was Hampered by Limited Documentation (OIG-06-033)                    Page 13
Appendix 2
Major Contributors to This Report


Stephen Syriala, Audit Manager
Thomas Mason, Auditor-In-Charge
Esther Tepper, Communications Analyst
Horace Bryan, Referencer




FOREIGN ASSETS CONTROL: Assessing OCC’s Examination of OFAC Compliance
Was Hampered by Limited Documentation (OIG-06-033)                    Page 14
Appendix 3
Bank Secrecy Act/Anti-Money Laundering Examination Manual Excerpt
Core Examination Procedures



Objective

Assess the bank’s risk-based Office of Foreign Assets Control
(OFAC) program to evaluate whether it is appropriate for the
bank’s OFAC risk, taking into consideration its products, services,
customers, transactions, and geographic locations.

Procedures

1. Determine whether the board of directors and senior
   management of the bank have developed polices, procedures,
   and processes based on their risk assessment to ensure
   compliance with OFAC laws and regulations.

2. Regarding the risk assessment, review the bank’s OFAC
   program. Consider the following:

•   The extent of, and method for, conducting OFAC searches of
    each relevant department/business line (e.g., automated clearing
    house (ACH), monetary instruction sales, check cashing, trusts,
    loans, deposits, and investments) as the process may vary from
    one department or business line to another.
•   The extent of, and method for, conducting OFAC searches of
    account parties other than accountholders, which may include
    beneficiaries, guarantors, principals, beneficial owners, nominee
    shareholders, directors, signatories, and power of attorney.
•   How responsibility for OFAC is assigned.
•   Timeless of obtaining and updating OFAC lists or filtering
    criteria.
•   The appropriateness of the filtering criteria used by the bank to
    reasonably identify OFAC matches (e.g., the extent to which
    the filtering/search criteria includes misspelling and name
    derivations).
•   The process used to investigate potential matches.
•   The process used to block and reject transactions.
•   The process used to inform management of blocked or rejected
    transactions.
•   The adequacy and timeliness of reports to OFAC.
•   The process to manage blocked accounts (such accounts are
    reported to OFAC and pay a commercially reasonable rate of
    interest).


FOREIGN ASSETS CONTROL: Assessing OCC’s Examination of OFAC Compliance
Was Hampered by Limited Documentation (OIG-06-033)                    Page 15
Appendix 3
Bank Secrecy Act/Anti-Money Laundering Examination Manual Excerpt
Core Examination Procedures



•   The record retention requirements (i.e., five year requirement to
    retain relevant OFAC records; for blocked property, record
    retention for as long as blocked; once unblocked, records must
    be maintained for five years).

3. Determine the adequacy of independent testing (audit) and
   follow-up procedures.

4. Review the adequacy of the bank’s OFAC training program
   based on the bank’s OFAC risk assessments.

5. Determine whether the bank has adequately addressed
   weaknesses or deficiencies identified by OFAC, auditors or
   regulators.

Transaction Testing

6. On the basis of a bank’s risk assessment, prior examination
   reports, and a review of the bank’s audit findings, select the
   following samples to test the bank’s OFAC program for
   adequacy, as follows:

•   Sample new accounts (e.g., deposits, loan, trust, safe deposit,
    investments, credit cards, and foreign office accounts,) and
    evaluate the filtering process used to search the OFAC database
    (e.g., the timing of the search), and documentation maintained
    evidencing the searches.

•   Sample appropriate transactions that may not be related to an
    account (e.g., funds transfers, monetary instrument sales and
    check cashing transactions), and evaluate the filtering criteria
    used to search the OFAC database, the timing of the search,
    and documentation maintained evidencing the searches.


•   If the bank uses an automated system to conduct searches,
    assess the timing of when updates are made to the system, and
    when the most recent OFAC changes were made to the system.
    Also, evaluate whether all of the bank’s databases are run
    against the automated system, and the frequency upon which
    searches are made. If there is any doubt regarding the
    effectiveness of the OFAC filter, then run tests of the system

FOREIGN ASSETS CONTROL: Assessing OCC’s Examination of OFAC Compliance
Was Hampered by Limited Documentation (OIG-06-033)                    Page 16
  Appendix 3
  Bank Secrecy Act/Anti-Money Laundering Examination Manual Excerpt
  Core Examination Procedures


      by entering test account names that are the same as or similar
      to those recently added to the OFAC list to determine whether
      the system identifies a potential hit.

  •   If the bank does not use an automated system, evaluate the
      process used to check the existing customer base against the
      OFAC list and the frequency of such checks.

  •   Review a sample of potential OFAC matches and evaluate the
      bank’s resolution and blocking/rejecting processes.

  •   Review a sample of reports to OFAC and evaluate their
      completeness and timeliness.

  •   If the bank is required to maintain blocked accounts, select a
      sample and evaluate that the bank maintains adequate records
      of amounts blocked and ownership of blocked funds, that the
      bank is paying a commercially reasonable rate of interest on all
      blocked accounts, and that it is accurately reporting required
      information annually (by September 30th) to OFAC. Test the
      controls in place to verify that the account is blocked.

  •   Pull a sample of false hits (potential matches) to check their
      handling; the resolution of a false hit should take place outside
      of the business line.

  7. Identify any potential matches that were not reported to OFAC,
     discuss with bank management, advise bank management to
     immediately notify OFAC of unreported transactions, and
     immediately notify supervisory personnel at your regulatory
     agency.

  8. Determine the origin of deficiencies (e.g., training, audit, risk
     assessment, internal controls, management oversight,) and
     conclude on the adequacy of the bank’s OFAC program.

  9. Discuss OFAC related examination findings with bank
     management.

10.   Include OFAC conclusions within the report of examination, as
      appropriate.


  FOREIGN ASSETS CONTROL: Assessing OCC’s Examination of OFAC Compliance
  Was Hampered by Limited Documentation (OIG-06-033)                    Page 17
Appendix 4
Management Response




FOREIGN ASSETS CONTROL: Assessing OCC’s Examination of OFAC Compliance
Was Hampered by Limited Documentation (OIG-06-033)                    Page 18
Appendix 4
Management Response




FOREIGN ASSETS CONTROL: Assessing OCC’s Examination of OFAC Compliance
Was Hampered by Limited Documentation (OIG-06-033)                    Page 19
Appendix 5
Report Distribution


Department of the Treasury

Under Secretary, Office of Terrorism and Financial Intelligence
Assistant Secretary, Terrorist Financing and Financial Crimes
Office of Strategic Planning and Performance Management
Office of Accounting and Internal Control

Office of Comptroller of the Currency

Comptroller

Office of Foreign Assets Control

Acting Director

Office of Management and Budget

OIG Budget Examiner




FOREIGN ASSETS CONTROL: Assessing OCC’s Examination of OFAC Compliance
Was Hampered by Limited Documentation (OIG-06-033)                    Page 20
